NO.
IN THE

SUPREME COURT OF THE UNITED STATES

Willie Israel Navarette, Petitioner
v.
United States of America, Respondent
ON PETITION FOR WRIT OF CERTIORARI

TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Pursuant to Rule 39 of the Rules of the Supreme Court of the United States, Petitioner Elvis
Basic, by and through his CJA attorney, Chad R. McCabe, respectfully requests leave to file a
petition for writ of certiorari in forma pauperis.

The United States Court of Appeals for the Eighth Circuit appointed attorney Chad R.
McCabe to handle the appeal in the above entitled matter on June 24, 2020. A copy of the Order
appointing Chad R. McCabe is attached hereto as Exhibit A.

Respectfully submitted on this 20" day of September, 2021.

/s/ Chad R McCabe
CHAD R. MCCABE
419 Riverwood Dr., Suite 104
Bismarck, ND 58504
(701) 222-2500

N.D.State Bar ID No. 05474
Attorney for Petitioner
